March 31, 2010

EDWARD F. PHELAN, JR.
DISTRICT MANAGER, ALBANY DISTRICT

SUBJECT: Audit Report – Color-Coding of Standard Mail and Mail Condition Reporting
         at the Albany Processing and Distribution Center
         (Report Number NO-AR-10-005)

This report presents the results of our audit of color-coding1 Standard Mail® and mail
condition reporting at the Albany Processing and Distribution Center (P&DC), Albany,
NY, by the U.S. Postal Service Office of Inspector General (OIG) Office of Investigation
and Office of Audit (Project Number 10XG014NO000). The objective of the audit was to
evaluate internal controls at the Albany P&DC over the color-coding process and mail
counting and reporting. This audit addresses operational risk. See Appendix A for
additional information about this audit.




1
 The Postal Service uses a system of color-coding to facilitate timely movement of Standard Mail. The Color-code
process assigns a color to each day of the week.
Color-Coding of Standard Mail and Mail Condition Reporting at the       NO-AR-10-005
 Albany Processing and Distribution Center



Conclusion

Opportunities exist at the Albany P&DC to improve color coding as well as the counting
and reporting of delayed mail. We found that employees did not:

       Properly color-code 74 percent of the mail containers.

       Properly report delayed mail. For example, count sheets for January 1 through
        18, 2010 showed approximately 1.1 million additional mailpieces were not
        reported as delayed mail.

       Always accurately report the date of the oldest mail on-hand.

Once proper color-coding procedures were brought to the attention of new management
at the facility, they developed an action plan to ensure employees received color-code
training.

Color-Coding Standard Mail

Of the 415 staged Standard Mail containers reviewed, only 108 (about 26 percent) were
properly color-coded and the remaining 307 were not color-coded in accordance with
policy. Specifically:

       Thirteen containers (about 3 percent) were missing color-code tags.

       Two-hundred ninety-four (about 71 percent) containers were missing the time
        and/or date from the tag.

These conditions occurred due to:

     Limited color-code training and awareness of the policy.

     No oversight by the color-code coordinator.

Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the first-in




                                                    2
Color-Coding of Standard Mail and Mail Condition Reporting at the         NO-AR-10-005
 Albany Processing and Distribution Center


first-out (FIFO) method.2 Additionally, the Postal Service cannot readily track service
standards and accurately report mail conditions in the web-based Mail Condition
Reporting System (webMCRS). Failure to accurately color-code and date the mail could
also confuse delivery units about when they need to deliver mail. See Appendix B for
our detailed analysis of this topic.

We recommend the Albany District manager:

1. Provide oversight to ensure continuation of color-code training.

2. Direct the district color-code coordinator to conduct periodic color-code reviews.

Mail Condition Reporting

The Albany P&DC was not always accurately reporting delayed mail. During our
observations we found:

          Delayed mail volume was underreported.
          Mail scheduled for delivery was recorded as on-hand, but not delayed.
          The oldest mail date was not accurately reported on the webMCRS reports.

Bringing these matters to the attention of the new plant manager resulted in proper
webMCRS reporting as of January 22, 2010.

These conditions occurred because:

        In-plant support did not provide oversight to employees performing mail counts.
        The counter(s) misinterpreted the policy believing they had until delivery day to
         process the mail before reporting it as delayed.
        Management provided incorrect instructions to employees performing webMCRS
         input so district, area, and headquarters officials would not know the extent of
         the delayed mail problems.

Without properly reporting delayed and on-hand mail volumes, management does not
have the tools necessary to make effective operational decisions. This could also
impact customer service without management’s knowledge. See Appendix B for our
detailed analysis of this topic.

We recommend the Albany District manager:

3. Provide mail condition reporting training and oversight to employees.
2
    Mail is staged and processed based on order of receipt.




                                                              3
Color-Coding of Standard Mail and Mail Condition Reporting at the    NO-AR-10-005
 Albany Processing and Distribution Center


Management’s Comments

Management agreed with the findings and recommendations. During the audit,
management corrected the deficiencies in the processes. In addition, applicable
employees received color-code and mail condition reporting training. See Appendix D
for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission operations

Attachments

cc:     Patrick R. Donahoe
        Steven J. Forte
        Jordan M. Small
        Timothy C. Haney
        Susan M. LaChance
        Frank Neri
        Mark D. Dahlstrom
        Sally K. Haring




                                                    4
Color-Coding of Standard Mail and Mail Condition Reporting at the      NO-AR-10-005
 Albany Processing and Distribution Center


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Based on a January 13, 2010, request from the Chairman of the Committee on
Oversight and Government Reform, we completed a review of New York State pension
check delays. The request concerned the circumstances surrounding the significant
delays in the delivery of pension checks in New York which entered the mail stream on
December 30, 2009, at the Albany P&DC. The request alleged the P&DC misplaced
60,000 pension checks and sent them to other states and the Postal Service only
started delivering them to New York residences on January 11, 2010.

We found the allegation was partially substantiated. While the pension checks were
mistakenly put in the Standard Mail process rather than treated as First-Class Mail
(FCM), the Postal Service started delivering the checks on January 4, 2010. Employees
located and processed the last mishandled tray on January 15, 2010. None of the
misplaced pension checks were originally sent to other states. Additionally, the Postal
Service took immediate action to locate, process, and deliver the pension checks as
well as to expedite replacement checks and send letters to creditors. Our review of the
incident revealed:

       The pension checks were delayed due to poor internal controls.
       Pension checks were subsequently processed and delivered.
       The Postal Service took immediate steps to rectify the problem including
        expediting replacement checks and letters to creditors.

Subsequently, we conducted a review of internal controls as they relate to color-coding
mail and mail condition reporting.

The Postal Service uses a system of color coding to facilitate timely movement of
Standard Mail. The color-coding process assigns a color to each day of the week. This
enables easy processing of mail using the FIFO method. Management updated the
color-code policy on June 17, 2008, with an effective date of August 29, 2008. In
December 2008, management made an additional update to the policy clarifying
reporting requirements. The Postal Accountability and Enhancement Act of 2006
requires delivery standards for all classes of mail. While standards have not changed,
the policy maintains the integrity of the color code from processing to delivery. The
service standard for Standard Mail is 3–10 calendar days.

Policies and procedures pertaining to the color-coding system are set forth in
Section 458 of the Postal Operations Manual (POM). The Postal Service is revising the
POM to reflect changes in the new color-code policy.




                                                    5
Color-Coding of Standard Mail and Mail Condition Reporting at the       NO-AR-10-005
 Albany Processing and Distribution Center


In support of the changes to the national color-code policy, management also made
changes to the webMCRS. Categories in the webMCRS such as Plan Failure, Delayed
Processing, and Delayed Dispatch, are no longer reported for Standard Mail. The term
“Delayed Mail Flow for Standard Mail” is a new webMCRS definition that means mail
has not been processed, finalized, or dispatched from a specific operation or facility to
ensure delivery by the programmed delivery day.

Management updated the national color-code policy to include changes recommended
in prior OIG reports. This is the third report reviewing implementation of the updated
policies.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate internal controls at the Albany P&DC over the
color-coding process and mail counting and reporting.

This is the third in a series of audits addressing color-coding and mail reporting at
P&DCs nationwide. We selected the Albany P&DC based on our other work conducted
at the facility.

To determine whether color-coding procedures conformed to the national color-code
policy, we observed the color-coding of Standard Mail at the Albany P&DC during the
week of January 18, 2010. Additionally, we verified the mail count and reviewed count
data put into the webMCRS. We interviewed Postal Service officials and employees and
photographed operations and observed conditions.

We used computer-processed data from the following systems:

       Web Enterprise Information System.

       MCRS.
       Enterprise Data Warehouse.

We did not test controls over these systems. However, we checked the reasonableness
of the data we relied upon by confirming our analysis and results with Postal Service
managers and multiple data sources. We conducted this performance audit from
January through March 2010 in accordance with generally accepted government
auditing standards and included such tests of internal controls as we considered
necessary under the circumstances. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. We discussed our observations and conclusions with management
officials on February 23, 2010, and included their comments where appropriate.




                                                    6
      Color-Coding of Standard Mail and Mail Condition Reporting at the                              NO-AR-10-005
       Albany Processing and Distribution Center


      PRIOR AUDIT COVERAGE

                                               Report              Final Report
             Report Title                      Number                  Date                         Report Results
Color-Coding of Standard Mail              NO-AR-09-008           August 6, 2009        Opportunities exist for the Santa Clarita
and Mail Condition Reporting at                                                         P&DC to improve the color-coding and
the Santa Clarita Processing and                                                        reporting of delayed mail to reflect color-
Distribution Center                                                                     coding and delayed mail reporting
                                                                                        requirements as of August 29, 2008.
                                                                                        Management agreed with the report
                                                                                        recommendations.
Color-Coding of Standard Mail              NO-AR-09-006           June 10, 2009         Opportunities exist for the West Palm
and Mail Condition Reporting at                                                         Beach P&DC to improve the color-
the West Palm Beach Processing                                                          coding and reporting of delayed mail to
and Distribution Center                                                                 reflect color-coding and delayed mail
                                                                                        reporting requirements as of August 29,
                                                                                        2008. Management agreed with the
                                                                                        report recommendations.
Mail Condition Reporting at                NO-AR-08-005           August 5, 2008        There were opportunities to improve
International Service Centers                                                           mail condition reporting. While reports
                3
Capping Report                                                                          were timely, they were often incomplete
                                                                                        and inaccurate. Management agreed
                                                                                        with the report recommendations.




      3
          This capping report summarized the results of four audits on mail condition reporting.




                                                                   7
Color-Coding of Standard Mail and Mail Condition Reporting at the      NO-AR-10-005
 Albany Processing and Distribution Center


                              APPENDIX B: DETAILED ANALYSIS

Color-Coding of Standard Mail

During the week of January 18, 2010, we examined 415 containers of Standard Mail for
compliance with the national color-code policy. We found that only 108 (about 26
percent) were properly color coded and the remaining 307 were not color coded in
accordance with policy. Specifically:

       Thirteen containers (about 3 percent) were missing color-code tags.
       Two-hundred ninety-four containers (about 71 percent) were missing the time
        and/or date from the tag.

See Appendix C for a chart of the observations.



       Illustration 1:
 On Tuesday, January 19,
2010, containers staged in
the Automated Processing
 Package System area are
 missing tags or the time
  and date from the tags.




These conditions occurred due to:

     Limited color-code training and awareness of the policy.
     No oversight by the color-code coordinator.

A review of training records indicated Albany P&DC employees had not received the
national color-code training provided through the Postal Employee Development Center.
However, a limited number of employees received one-on-one training from the former
district color-code coordinator. The color-code coordinator was not aware of
responsibilities outside of ordering color-code tags. This information was provided to the
new management at the facility who then developed an action plan to ensure
employees received color-code training.

According to the national color-code policy for Standard Mail, color-coding procedures
provide a guide to help maintain service goals for Standard Mail. All Standard Mail will
be color-coded and Standard Mail without a color-coded tag will be coded the same as



                                                    8
Color-Coding of Standard Mail and Mail Condition Reporting at the           NO-AR-10-005
 Albany Processing and Distribution Center


the oldest mail in the unit at the time of its discovery. Additionally, all color-code tags will
comply with a standardized national format which will require employees to enter the
date and time of mail entry on each tag. The delivery color-code is based on the original
entry date and time of the mail, not the processing date or time. Additionally, the P&DC
must develop local procedures to ensure they maintain the correct color-code for all
mail based on its arrival, even when such mail is entered into mechanized or automated
sorting systems.

        Illustration 2:
On Wednesday, January 20,
2010, containers staged for
  delivery point processing
 are tagged for delivery on
   the previous Saturday
    (pink), Monday (blue),
   Tuesday (orange), and
Wednesday (green). None of
 the labels contained dates
           or times.



Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch, and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the FIFO
method. Additionally, the Postal Service cannot readily track service standards and
accurately report mail conditions in the web-based MCRS. Failure to accurately
color-code and date the mail could also confuse delivery units about when the mail
needs to be delivered.

Mail Condition Reporting

During our observations during the week of January 18, 2010, the Albany P&DC was
not accurately recording and reporting delayed mail. For example, on January 19, 2010,
a review of the count sheet showed the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx recorded
delayed volume of 743,187 pieces, yet the Albany P&DC only reported 578,227 pieces.
The other 164,960 pieces were not entered into webMCRS.

A senior manager reported that they had been omitting this delayed volume for several
weeks, based on a misinterpretation of policy. An additional comparison of worksheets
to the mail condition report revealed an underreporting of more than 1.1 million pieces
during the first 18 days of January 2010 (see Tables 1 and 2). Xxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxt.




                                                    9
Color-Coding of Standard Mail and Mail Condition Reporting at the                        NO-AR-10-005
 Albany Processing and Distribution Center


            Table 1: Mail Condition Reporting Observations at the Albany P&DC
                On-Hand
                                                                                                      Oldest
                Standard         Reported          Actual                           Oldest Date
     Date                                                         Underreported                        Date
                   Mail          Delayed          Delayed                            Reported
                                                                                                     Observed
                Reported
1/19/2010         2,216,111          578,227         743,187             164,960      1/15/2010       1/8/2010
1/20/2010         2,000,457          526,015         871,669             345,654      1/15/2010      1/12/2010
1/21/2010         2,373,203          524,768         806,689             281,921      1/16/2010      1/12/2010
          4
1/22/2010         2,697,754        1,196,817       1,196,817                   -      1/14/2010      1/14/2010
   Total          9,287,525        2,825,827       3,618,362             792,535



                   Table 2: Comparison of Data Collected with Data Input

                                     Standard Mail Condition Reporting

                       On-Hand           Reported               Actual                            Percentage
    January 2010                                                             Underreported
                       Volume          Delayed Total         Delayed Total                         Delayed

         1               2,172,307            157,523              157,523                  -             7.3%
         2               2,430,294            487,528              667,618            180,090            27.5%
         3               1,208,596            311,620              340,492             28,872            28.2%
         4                 984,356            163,682              163,682                  -            16.6%
         5               1,094,223            197,456              197,456                  -            18.0%
         6               1,387,340            119,353              119,353                  -             8.6%
         7               1,534,552            349,317              349,317                  -            22.8%
         8               1,484,083            288,002              292,035              4,033            19.7%
         9               1,584,949            391,572              391,572                  -            24.7%
        10               2,149,873            160,520              160,520                  -             7.5%
        11               2,112,241            695,525              695,525                  -            32.9%
        12               1,990,990            713,301              713,301                  -            35.8%
        13               1,751,744            550,474              550,474                  -            31.4%
        14               1,994,967            363,836              589,830            225,994            29.6%
        15               1,912,979            233,063              527,090            294,027            27.6%
        16               2,085,490            187,489              486,417            298,928            23.3%
        17               2,050,980            153,600              244,697             91,097            11.9%
        18               1,928,122            259,625              259,625                  -            13.5%
       Total            31,858,086          5,783,486            6,906,527          1,123,041            21.7%

While no delayed FCM was observed during our on-site review, a comparison of the
Albany P&DC delayed mail volumes to similar-sized sites (Group 3 Plants) showed
large variances. For example, in FY 2009, Albany P&DC’s delayed FCM totaled 88,050


4
 On January 22, 2010, we brought OIG observations to the attention of plant management which resulted in proper
MCRS reporting.




                                                        10
 Color-Coding of Standard Mail and Mail Condition Reporting at the                          NO-AR-10-005
  Albany Processing and Distribution Center


 pieces, while the average for Group 3 Plants totaled over 1 million pieces. See Table 3
 for additional information on delayed mail reporting spanning several years.

                                       Table 3: Delayed Mail Reporting

                                                    Albany P&DC
                                                                                               Total
                                                                                                       Percentage
            Priority      FCM         Periodicals   Standard     Packages       Total       Percentage
                                                                                                         of FCM
                                                                                              of FHP
FY 2006         1,676             0      307,137     9,195,100       1,494      9,505,407        1.09%     0.00%
FY 2007         7,000     966,190         92,349    16,703,124            0   17,768,663         2.07%     0.11%
FY 2008         2,976        8,581       460,776    21,706,398            0   22,178,731         2.49%     0.00%
FY 2009  65,700             88,050      2,954,409   75,196,373       1,945    78,306,477         9.40%     0.01%
Percent
Change 2108%             926%           541%         246%           NA          253%
08 to 09
                                                                      5
                                                Average of Group 3
                                                                                               Total   Percentage
            Priority      FCM         Periodicals   Standard     Packages       Total       Percentage     of
                                                                                              of FHP      FCM
FY 2006       27,894    2,122,887       4,669,690   41,656,419      70,865    48,547,754         5.51%     0.24%
FY 2007       13,820    1,681,746       3,924,485   24,636,587      36,906    30,293,544         3.53%     0.20%
FY 2008       38,542    1,009,438       1,794,738   19,116,637      14,721    21,974,076         2.60%     0.12%
FY 2009       51,458    1,005,843       1,468,205   42,054,782      25,190    44,605,478         5.82%     0.13%
Percent
Change        34%          0%            -18%        120%          71%          103%
08 to 09
                                                      National
                                                                                               Total   Percentage
            Priority      FCM         Periodicals   Standard     Packages       Total       Percentage     of
                                                                                              of FHP      FCM
FY 2006 5,646,530 132,545,749 284,684,906 2,500,084,189 2,955,688 2,925,917,062                  1.32%     0.06%
FY 2007 4,247,565 76,818,275 218,800,974 2,548,447,708 2,793,790 2,851,108,312                   1.31%     0.04%
FY 2008 3,620,182 84,222,250 158,526,569 1,790,366,780            977,089 2,037,712,870          0.94%     0.04%
FY 2009 6,320,161 137,723,029 237,935,624 3,503,240,505 1,554,377 3,886,773,696                  1.98%     0.07%
Percent
Change     75%       64%         50%          96%          59%        91%
08 to 09

 On January 20, 2010, we also noted the Albany P&DC recorded flat mail scheduled for
 delivery the next day as “on-hand,” but did not include this volume in the delayed count.
 The counter had never received formal training and was not aware of the correct
 procedure. The Albany P&DC did not document the volume of mail on-hand by delivery
 day; therefore, we were not able to enumerate the volume underreported prior to our
 5
     Albany is a Group 3 P&DC, based on Breakthrough Productivity Index rankings.




                                                          11
Color-Coding of Standard Mail and Mail Condition Reporting at the                NO-AR-10-005
 Albany Processing and Distribution Center


observations. Finally, when recording the “oldest mail” date in webMCRS, the employee
who counted the mail did not accurately record the date on the color-code tag.




              Illustration 3:
     A container of mail observed on
    January 19, 2010, dated January 8,
                   2010.




Bringing these issues to the attention of the new plant manager resulted in proper
webMCRS reporting as of January 22, 2010. Additionally, the Albany P&DC office of In-
Plant Support has begun monitoring the mail count and reporting process.

According to the national color-code policy and the policy for mail condition reporting,
reporting delayed mail flow for Standard Mail is necessary to provide an accurate
snapshot of daily facility conditions for Standard Mail. Additionally, destinating 5-digit
non–delivery point sequenced mail6 should be reported as delayed 1 day before the
scheduled delivery day. Finally, the date of the oldest mail for Standard Mail is the date
recorded on any color-code tag affixed to a Standard Mail® container at the time the
count occurs.

Postal Service Network Operations Website, Processing Operations, In-plant Training,
requires Operations Support Specialists (OSS) to consolidate and review data from
operations to ensure the integrity of the information collected. Additionally, the OSS
must audit webMCRS by checking volume numbers from the webMCRS report with
manual counts (verifying counts with data collectors), including compliance with
color-coding policies.

These conditions occurred because:

        Management did not oversee the employees performing the mail count.
        The counter misinterpreted the policy believing they had until the delivery day to
         process the mail before reporting it as delayed.




6
    Destinating 5-digit mail requires additional sorting to the carrier route.




                                                               12
Color-Coding of Standard Mail and Mail Condition Reporting at the    NO-AR-10-005
 Albany Processing and Distribution Center


     Management provided incorrect instructions to employees performing webMCRS
      input so district, area, and headquarters officials would not know the extent of
      the delayed mail problems.

Not properly reporting delayed mail and on-hand volumes may prevent management
from making effective operational decisions. This could also impact customer service
without management’s knowledge.




                                                    13
  Color-Coding of Standard Mail and Mail Condition Reporting at the           NO-AR-10-005
   Albany Processing and Distribution Center


    APPENDIX C: OBSERVATIONS OF COLOR-CODING OF STAGED MAIL AT THE
                             ALBANY P&DC

                                           Containers Missing Incomplete
  Date         Time        Location                                                  Tag Origin
                                           Observed    Tags      Tags

 1/19/2010     1910     APPS staging             21              5      16       Albany P&DC
 1/19/2010     1915     APPS staging             22              0      22       Albany P&DC
 1/19/2010     1915     APPS staging             11              1      10       Albany P&DC
 1/19/2010     1925     Auto Letters             16              5      11       Albany P&DC
 1/19/2010     1930     Auto Letters             23              0      23       Albany P&DC
 1/19/2010     1940     White Room               10              0      10       Springfield L&DC
 1/19/2010     1940     White Room               1               0      0        BMC
 1/19/2010     1940     White Room               14              0      14       Albany P&DC
 1/19/2010     1940     White Room               14              0      14       Albany P&DC
 1/19/2010     1940     White Room               17              2      15       Springfield L&DC
 1/19/2010     1940     White Room               22              0      22       Albany P&DC
 1/19/2010     1940     White Room               15              0      12       Springfield L&DC
 1/19/2010     1940     White Room               24              0      0        Albany P&DC
 1/21/2010     2200     White Room               49              0      14       Albany P&DC
 1/21/2010     2210     White Room               40              0      40       Albany P&DC
 1/21/2010     2215     White Room               57              0      12       Albany P&DC
 1/21/2010     2220     DBCS                     59              0      59       Albany P&DC
   Total                                        415             13     294
   Error
                                                              3.1%    70.8%
Percentage




                                                      14
Color-Coding of Standard Mail and Mail Condition Reporting at the   NO-AR-10-005
 Albany Processing and Distribution Center



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                    15
Color-Coding of Standard Mail and Mail Condition Reporting at the   NO-AR-10-005
 Albany Processing and Distribution Center




                                                    16
